U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                 OFFICE OF THE
     CHIEF INFORMATION OFFICER

             Management Attention Is Needed
                          To Assure Adequate
        Computer Incident Response Capability

  Final Inspection Report No. OSE-16522/September 2004




                           PUBLIC
                           RELEASE



                            Office of Systems Evaluation

U.S. Department of Commerce                                                                Final Inspection Report OSE-16522

Office Of Inspector General                                                                                    September 2004





                                                          CONTENTS


EXECUTIVE SUMMARY ..............................................................................................................i


BACKGROUND ............................................................................................................................ 1


OBJECTIVES, SCOPE, AND METHODOLOGY ........................................................................ 4


FINDINGS AND RECOMMENDATIONS................................................................................... 5


I.	 The Department’s Distributed Incident Response Structure Is Appropriate, but the 

    Planned Coordination Mechanism Has Not Been Implemented .............................................. 5

    A. A Distributed Structure Suits the Department’s Decentralized Organization .................... 5

    B. 	The Federation of CIRTs Has Not Been Implemented ....................................................... 6


II. Some Commerce Operating Units Lack Adequate Incident Response Procedures and Most 

    Lack the Required Reviews and Approvals .............................................................................. 9


III. Operating Units’ Incident Reporting Is Incomplete and Inconsistent .................................... 12


IV. System Administrators and IT Security Officers Must Improve Their Intrusion Detection 

    Approaches and Obtain Additional Specialized Tools and Training...................................... 16

    A. Intrusion Detection Approach Is Inadequate .................................................................... 16

    B. Additional Specialized Training Is Needed ...................................................................... 16


Attachment: Department CIO's Response

U.S. Department of Commerce                                                      Final Inspection Report OSE-16522

Office Of Inspector General                                                                         September 2004




                                          EXECUTIVE SUMMARY 


The Federal Information Security Management Act (FISMA) 1 requires agencies to review their
information security program annually and Offices of Inspector General (OIGs) to conduct
independent evaluations of those programs annually as well. Agencies are required by FISMA
to implement procedures for detecting, responding to, and reporting computer security incidents. 2
Pursuant to FISMA, we evaluated the Department’s computer incident response capability with a
focus on the organizational structure, roles and responsibilities, and operating unit procedures for
incident identification, analysis, response, and reporting.

The Department’s information security policy establishes requirements for computer incident
response as part of the overall information security program administered by the Department’s
Office of the Chief Information Officer (CIO). The policy requires all operating units to have a
computer incident response capability (CIRC), defined as a set of formal mechanisms and
procedures that allows an organization to react quickly, decisively, and consistently when an
incident occurs. Any operating unit personnel may perform CIRC duties on an as-needed basis.
An operating unit may also establish its own computer incident response team (CIRT), a formal
group that performs intrusion monitoring and incident handling and reporting on a full- time
basis. An operating unit that does not have its own CIRT receives support from the Department
of Commerce CIRT (DOC CIRT), which resides in the Office of the Secretary.

Our evaluation found that the Department’s distributed incident response structure is appropriate
for the decentralized organization of the Department. However, improvements are needed to
allow the Department CIO to obtain a Commerce-wide view of vulnerabilities and threats and
ensure efficient and effective incident response throughout Commerce. Issues we identified
include (1) the lack of a centralized entity to promote information sharing and consistency in
response processes across the decentralized structure, (2) the absence of adequate incident
response procedures in several units, (3) incomplete and inconsistent reporting of incidents by
the operating units, and (4) the need for system administrators and IT security officers to
improve their intrusion detection approaches and obtain additional specialized tools and training.
Our specific findings are as follows.

The Department’s Distributed Incident Response Structure Is Appropriate, but the
Planned Coordination Mechanism Has Not Been Implemented. To support Commerce’s
decentralized and diverse organization, many of its computer incident response teams are
organizationally part of the operating units as opposed to being centralized in the Department.
While this permits these teams to have valuable technical and organizational knowledge of the
units they serve, it also requires effective communication and coordination among the teams.




1
 Title III, E-Government Act of 2002 (P.L. 107-347).

2
  An incident is a violation or imminent threat of violation of computer security policies, acceptable use policies, or 

standard security practices. The Department’s definition of a reportable incident is presented on page 14.



                                                            i
U.S. Department of Commerce                                                   Final Inspection Report OSE-16522
Office Of Inspector General                                                                      September 2004


Indeed, NIST guidance 3 on computer security incident handling points out that distributed teams
should be part of a single centralized entity so that the incident response process is consistent
across the organization and information is shared among teams. The Department CIO intended
to establish what he termed a “CIRT federation” to achieve coordination and communication by
July 2002. To date, ho wever, the federation has not been implemented. Thus, coordination and
communication regarding incident prevention and response do not occur systematically, and the
Department CIO’s ability to have an accurate Commerce-wide view of incidents and capabilities
is hampered. (See page 5.)

Some Operating Units Lack Adequate Incident Response Procedures and Most Lack the
Required Approvals. Having written incident response procedures is one of the most important
tools for successfully handling incidents. The Department’s policy requires all operating units to
have formal response procedures and to submit them to the operating unit’s CIO and the
Department for review and approval. Despite the importance of procedures, 4 of the 10
operating units we reviewed, including the Office of the Secretary which houses DOC CIRT, do
not have procedures that are detailed and complete enough to support effective incident response,
6 of the 10 units did not receive operating unit CIO approval for their procedures, and only 1 of
the 10 units received approval by the Department CIO’s office. The lack of adequate procedures
is particularly troubling for DOC CIRT since it is the incident handling organization for the
operating units without a formal CIRT. (See page 9.)

Operating Units’ Incident Reporting Is Incomplete and Inconsistent. Reporting of incidents
to the Federal Computer Incident Response Capability (FedCIRC) is required both by FISMA
and Department policy, and analysis of reported incident data is an important way for the
Department to gain a better understanding of its threats and vulnerabilities. However, few
detected incidents are currently being reported. We found that one reason for inadequate
reporting is that some operating units are unfamiliar with the Department’s reporting
requirements, and the Department has not enforced them. (See page 12.)

System Administrators and IT Security Officers Must Improve Their Intrusion Detection
Approaches and Obtain Additional Specialized Tools and Training. Although incident
detection can help prevent incidents or mitigate their effects, the necessary detection steps
frequently are not taken. Incident prevention and detection can be facilitated by installing
intrusion detection systems and reviewing log information on a regular basis. Our review
identified weaknesses in the frequency and approach used to review log information from
network devices. We found instances where log information was not reviewed, infrequently
reviewed, or reviewed only on a monthly basis. We also found instances where large quantities
of information were examined using visual inspection as opposed to automated tools.
Furthermore, we found that most operating units identify few incidents, a consequence, in part,
of poor incident detection techniques. Although some specialized security training is provided to
system administrators, network administrators, IT security officers, and IT security staff who are
responsible for responding to incidents and reviewing audit log information from network
3
 NIST’s responsibilities include the development of technical, physical, administrative, and management standards
and guidelines for the cost-effective security and privacy of sensitive unclassified information in Federal computer
systems.



                                                         ii
U.S. Department of Commerce                                        Final Inspection Report OSE-16522
Office Of Inspector General                                                           September 2004


devices, this training is not systematic and does not ensure that staff members have the requisite
knowledge and skills. (See page 16.)

We made numerous recommendations to the Department CIO including to define and implement
an approach for achieving coordination and communication among the distributed incident
response teams either through a CIRT federation or some other means, as well as for improving
incident response procedures, reporting, and detection. (See pages 8, 11, 15, and 17.)

                                                …

In his response to our draft report, the Department CIO concurred with our findings and
recommendations, and described the corrective actions planned or underway. The response
states that an approach for achieving coordination and communication among the Department’s
distributed incident response teams will be implemented by June 2005. It also states that model
incident response procedures will be developed and the IT security policy and procedures will be
revised to ensure prompt notification of the DOC CIRT and FedCIRC when incidents occur.
The response further states that the policy will be revised and model procedures developed to
address handling of network device log information, and appropriate tools to support this activity
will be acquired. Training on the new policy and procedures will be provided for IT security
officers and CIRT personnel, as appropriate. The implementation of these actions will be
completed in FY 2005, and the Department’s annual IT security compliance review program will
be used to monitor compliance throughout Commerce. These actions are responsive to our
recommendations and, when implemented, should improve incident detection and response. The
CIO’s complete response is included as an attachment to this report.




                                                iii
U.S. Department of Commerce                                                   Final Inspection Report OSE-16522

Office Of Inspector General                                                                       September 2004



                                               BACKGROUND


Information security threats have become more numerous and diverse, as well as more damaging
and disruptive. New types of incidents are continually emerging, and not all incidents can be
prevented. An effective incident response capability is essential for rapidly detecting incidents,
minimizing losses, and restoring services.

The Federal Information Security Management Act (FISMA) 1 requires agencies to review their
information security program annually and Offices of Inspector General (OIGs) to conduct
independent evaluations of those programs annually as well. Agencies are required by FISMA
to implement procedures for detecting, responding to, and reporting computer security incidents.
Pursuant to FISMA, we evaluated the Department’s computer incident response capability.

National Institute of Standards and Technology (NIST) Special Publication 800-61, Computer
Security Incident Handling Guide, 2 points out that a computer security incident was previously
thought of as a security-related adverse event in which there was a loss of data confidentiality,
disruption of data or system integrity, or disruption or denial of availability, but recently new
types of computer security incidents have emerged, necessitating an expanded definition of an
incident. The guide defines an incident as a violation or imminent threat of violation of
computer security policies, acceptable use policies, or standard security practices. The guide
notes that the definition of a computer security incident has evolved.

Examples of incidents include (1) denial of service attack, whic h prevents or impairs the
authorized use of networks, systems, or applications by exhausting resources; (2) introduction of
malicious code, which could be a virus, worm, Trojan horse, or other code-based entity that
infects a host; (3) unauthorized access, in which logical or physical access is obtained without
permission to a network, system, application, data, or other resource; and (4) inappropriate
usage, which is a violation of acceptable computing use policies.

Since even strong security controls may not prevent all incidents, an effective incident response
capability is imperative. NIST guidance identifies the benefits of having an incident response
capability as providing the ability to:

•	 Respond to incidents systematically so that the appropriate steps are taken,

•	 Help personnel to recover quickly and efficiently from security incidents, minimizing loss or
   theft of information and disruption of services,


1
  Title III, E-Government Act of 2002 (P.L. 107-347).
2
  NIST’s responsibilities include the development of technical, physical, administrative, and management standards
and guidelines for the cost-effective security and privacy of sensitive unclassified information in Federal computer
systems. NIST Special Publication 800-61, Computer Security Incident Handling Guide, is intended to assist
organizations in mitigating the risks from information security incidents by providing practical guidance on
responding to incidents effectively and efficiently.




                                                         1
U.S. Department of Commerce                                                    Final Inspection Report OSE-16522
Office Of Inspector General                                                                        September 2004


•	 Use information gained during incident handling to better prepare for handling future
   incidents and to provide stronger protection for systems and data, and

•	 Deal properly with legal issues that may arise during incidents.

Departmental Policy on Computer Incident Response

The Department’s information security policy entitled, IT Security Program Policy and
Minimum Implementation Standards, establishes requirements for computer incident response as
part of the overall information security program, which is administered by the Department’s
Office of the Chief Information Officer (CIO). The incident response portion of the policy
covers such topics as:

•	   Definition of a reportable incident,
•	   Responsibility for developing the computer incident response capability (CIRC),
•	   Responsibility for approving and updating operating unit CIRC policies and procedures,
•	   Information to be provided to the Department on CIRC operating procedures,
•	   Actions required for monitoring and detecting incidents, and
•	   Requirements for reporting incidents to the Federal Computer Incident Response Capability
     (FedCIRC)3 .

The policy requires all operating units to have a CIRC, defined as a set of formal mechanisms
and procedures that allows an organization to react quickly, decisively, and consistently when an
incident occurs. Any operating unit personnel may perform CIRC duties on an as-needed basis.
In addition, an operating unit may establish its own computer incident response team (CIRT), a
formal group that performs intrusion monitoring and incident handling and reporting on a full-
time basis. An operating unit that does not have its own CIRT receives support from the
Department of Commerce CIRT (DOC CIRT), which resides in the Office of the Secretary.
Such units must report incidents to DOC CIRT, which then notifies FedCIRC. Formally
established operating unit CIRTs must report incidents directly to FedCIRC and send an
information copy of the report to DOC CIRT. According to the policy, the required interface and
exchange of information among CIRTs is called the DOC federated CIRT structure.

The policy identifies two positions in the Department CIO’s Office that have significant
responsibilities for establishing and maintaining an agency-wide computer incident response
program. The Department’s IT security program manager is responsible for issuing the policy
and guidance that establish the framework for the Department-wide information security
program, overseeing the program, and approving associated policy. The Department’s critical
infrastructure program manager is responsible for acting as the central point of contact for
incident handling in concert with the Office of Security and OIG, ensuring the reporting of
incidents to FedCIRC, and developing the Department’s federated computer incident response
program. In the operating units, the IT security officers serve as their units’ focal point for
handling all incidents and reporting. The IT security officers are also responsible for

3
 FedCIRC is the federal civilian agencies’ focal point for computer security incident reporting, prevention, and
response. It is located in the Department of Homeland Security.


                                                          2
U.S. Department of Commerce                                       Final Inspection Report OSE-16522
Office Of Inspector General                                                           September 2004


coordinating with the Department’s IT security program manager, critical infrastructure program
manager, Office of Security, and OIG, as appropriate, concerning incidents, potential threats, and
other concerns.

The Department’s information security policy requires each operating unit IT security officer to
develop standard operating policies and procedures for computer incident response. These
policies and procedures are to be approved by the operating unit CIO and then submitted to the
DOC critical infrastructure program manager for review and approval for integration into
policies and procedures for the DOC federated CIRT. The Department’s critical infrastructure
program manager, in consultation with the IT security program manager, is to develop and
approve all policies and procedures for operation of DOC CIRT and the DOC federation of
CIRTs.

As noted previously, DOC CIRT supports those operating units that have not established a
formal CIRT. Currently the following units are supported: Office of the Secretary (OS),
International Trade Administration (ITA), Minority Business Development Agency (MBDA),
Bureau of Industry and Security (BIS), Economics and Statistics Administration (ESA),
Economic Development Administration (EDA), Technology Administration (TA), and OIG.

Units that have established their own CIRTs include: National Institute of Standards and
Technology (NIST), Bureau of the Census, Bureau of Economic Analysis (BEA), National
Oceanic and Atmospheric Administration (NOAA), National Technical Information Service
(NTIS), National Telecommunications and Information Administration (NTIA), and United
States Patent and Trademark Office (USPTO).




                                                3
U.S. Department of Commerce                                        Final Inspection Report OSE-16522

Office Of Inspector General                                                            September 2004



                      OBJECTIVES, SCOPE, AND METHODOLOGY

The purpose of this review was to evaluate the Department’s computer incident response
capability with a focus on the organizational structure, roles and responsibilities of DOC CIRT
and federated CIRT, and operating unit policies and procedures for incident identification,
analysis, handling, and reporting.

To satisfy our objective, we reviewed security incident response policies and procedures and
incident reports for 10 operating units, as well as reporting of incidents by the operating units to
DOC CIRT and FedCIRC. From the Department CIO’s office we interviewed the director of the
Office of Information Technology Security, Infrastructure, and Technology; IT security program
manager; critical infrastructure program manager; and staff of DOC CIRT. We also interviewed
the IT security officers and CIRT staff in the following operating units: BIS, Census, EDA, ITA,
MBDA, NIST, NTIS, NOAA, and USPTO.

Our criteria included FISMA; NIST Special Publication 800-61, Computer Security Incident
Handling Guide; DOC IT Security Program Policy and Minimum Implementation Standards;
and Carnegie Mellon University/Software Engineering Institute, Handbook for Computer
Security Incident Response Teams.

We conducted this evaluation in accordance with the Inspector General Act of 1978, as
amended, and the Quality Standards for Inspections, March 1993, issued by the President’s
Council on Integrity and Efficiency. We performed our fieldwork from November 2003 to
March 2004.




                                                 4
U.S. Department of Commerce                                         Final Inspection Report OSE-16522

Office Of Inspector General                                                             September 2004



                           FINDINGS AND RECOMMENDATIONS


I. The Department’s Distributed Incident Response Structure Is Appropriate, but the
   Planned Coordination Mechanism Has Not Been Implemented

To support Commerce’s decentralized and diverse organization, many of its computer incident
response teams are organizationally part of the operating units. While this permits these teams to
have valuable technical and organizational knowledge of the units they serve, it also requires
effective communication and coordination among the teams. To achieve communication and
coordination, the Department CIO intended to establish what he termed a “CIRT federation” by
July 2002. To date, ho wever, a CIRT federation has not been established. Thus, coordination
and communication rega rding security incident prevention and response do not occur on a
systematic basis, and the Department CIO’s ability to have an accurate Commerce-wide view of
incidents is hampered.

A. A Distributed Structure Suits the Department’s Decentralized Organization

One of the initial steps in establishing an incident response capability is selecting the appropriate
organizational structure. The Department has a distributed incident response structure. A
distributed structure consists of multiple incident response teams located through out an
organization, each being responsible for computer incidents within their area or physical/logical
segment of the organization. Currently, all major Commerce operating units and some small
units have their own incident response teams, as permitted by Department policy. Consistent
with the policy, DOC CIRT has been established to support the Office of the Secretary, as well
as the remainder of the units that do not have their own incident response teams. One of the
activities performed by the DOC CIRT has been to communicate alerts on security issues and
vulnerabilities received from FedCIRC and other sources to the operating units’ IT security staff.

The Department is comprised of diverse operating units, each with different missions, network
structures, system architectures, applications, intrusion monitoring technologies, and
organizational issues. As NIST’s Computer Incident Handling Guide observes, accurate analysis
and prioritization of incidents are dependent on specific knowledge of the organization’s
environment. Because of the significant differences among Commerce’s operating units, a
distributed incident response structure positions each CIRT or CIRC to have specific technical
and organizational knowledge of the unit it serves. According to NIST guidance, a distributed
incident response structure is effective for large organizations and for organizations with major
computing resources at distant locations, both of which are characteristics of Commerce. NIST
guidance points out that distributed teams should be part of a single centralized entity so that the
incident response process is consistent across the organization and information is shared among
teams. This type of structure requires effective communication among the incident response
teams and consistent practices for effective incident handling. Information sharing is particularly
important because multiple teams may see components of the same incident or may handle
similar incidents.




                                                  5
U.S. Department of Commerce                                                          Final Inspection Report OSE-16522
Office Of Inspector General                                                                              September 2004


B. The Federation of CIRTs Has Not Been Implemented

To promote coordination and communication, the Department CIO made a commitment to
establish a federated computer incident response capability by July 2002, and in a summary of
accomplishments accompanying its FY 2003 FISMA report stated, “The Department’s computer
incident response capability was extended by the establishment of a Federated Computer
Incident Response Capability to ensure integration, innovation, and cooperation in Department-
wide incident prevention, response, and handling activities.” The establishment of a federated
capability was similarly reported in the Department’s FY 2003 Performance and Accountability
Report. However, to date, a federated capability has not been implemented. Thus, coordination
and communication regarding security incident prevention and response do not occur on a
systematic basis, and the Department CIO’s ability to have an accurate Commerce-wide view of
incidents is hampered.

A timeline depicting the events related to implementation of a CIRT federation is presented in
table 1. In our March 2001 review of the Department’s information security program, we noted
the lack of an incident response capability at some operating units and recommended that all
units have this capability. In its August 2001 review of information security within the
Department, the Government Accountability Office 4 (GAO) made a similar recommendation.
The Department CIO agreed to implement these recommendations and in an April 2002
memorandum to heads of operating units and CIOs, established a target date of July 2002 for the
federation of CIRTs to be working together.


        Table 1. Timeline of Events Related to CIRT Federation

               Date                                                    Event
                                OIG report recommending ensuring all operating units have an incident
        March 2001                                   a
                                response capability.
                                GAO report recommending establishment of Department-wide incident
        August 2001                                  b
                                response capability.
                                Department CIO memorandum establishing target date of July 2002 for
        April 2002
                                the CIRT federation to be working together and interconnected.
                                Department’s new information security policy issued defining at a high-
        January 2003
                                level DOC CIRT and federated CIRT concept.
                                Federation focus group formed to define a framework, mission, goals,
        June 2003
                                and objectives for CIRT federation.
        August 2003             Focus group white paper submitted to Department CIO.

        November 2003           Focus group activities suspended by Department CIO.
        a
        Office of Inspector General, Additional Focus Needed on Information Technology Security Policy and
        Oversight, OSE-13573, March 2001, U.S. Department of Commerce.
        b
          United States General Accounting Office, Information Security Weaknesses Place Commerce Data and Operations
        at Serious Risk, August 2001.



4
    The Government Accountability Office was formerly called the General Accounting Office.


                                                              6
U.S. Department of Commerce                                               Final Inspection Report OSE-16522

Office Of Inspector General                                                                   September 2004



Following the Department CIO’s memorandum, IT security staff from the Department and
operating units worked together to define the federated incident response capability. Despite
their efforts, minimal progress was made due to significant differences among the operating units
and the Department in defining the roles, responsibilities, and operating structure for the
federated CIRT. In an effort to resolve these differences, the Department CIO created a
federation of CIRTs focus group. 5 In August 2003, this group completed a white paper
containing preliminary recommendations entitled, “Framework for the Commerce Federation of
Computer Incident Services,” and submitted it to the Department CIO. The recommendations
addressed the federation’s operating framework, capabilities, services, and functions and were
designed to achieve the following goals:6

•	 Create and maintain a Commerce-wide perspective of threats against the Department,

•	 Improve operating unit incident response capability by enhancing communications
   concerning attacks and compromises,

•	 Share informatio n to more efficiently and effectively respond to computer security related
   incidents,

•	 Make resources available that would otherwise not be available to separately functioning
   CIRCs, and

•	 Continually enhance CIRCs’ expertise to better support their constituencies.

The white paper stated that a “final draft” report was targeted for September 30, 2003. 

However, due to operating unit concerns with the recommendations, the Department CIO did not 

issue the report and suspended further focus group activities. 


We believe the goals presented in the white paper are sound, and a CIRT federation having roles 

and responsibilities designed to achieve them would help the Department CIO attain a 

Department-wide view of threats and incident response capabilities and promote high quality and 

consistent incident response services throughout Commerce. However, a CIRT federation is not 

the only means to achieve these goals. For example, DOC CIRT could be given the 

responsibility and resources to become the coordinator and focal point for all the CIRTs, with 

responsibility for such functions as obtaining and providing to the CIO the Department-wide 

perspective, coordinating the sharing of information and resources, providing guidance and 

advice, and promulgating best practices to operating units.


The Department CIO needs to work with the operating unit CIOs to determine how best to 

achieve the goals presented in the white paper—be it through the CIRT federation or some other 


5
  The Federation of CIRTs Focus Group includes security staff from the following: Census, EDA, MBDA, NIST, 

NOAA, USPTO, and the Departments CIO’s office.

6
  White Paper, Framework for the Computer Federation of Computer Incident Services (FOCIS), Preliminary 

Recommendations of the DOC Federation of Computer Incident Response Teams Focus Group, August 31, 2003.




                                                      7
U.S. Department of Commerce                                    Final Inspection Report OSE-16522
Office Of Inspector General                                                        September 2004


means—and ensure that the preferred approach is implemented and functioning effectively in a
timely manner.

Recommendation

The Department CIO should develop a plan and schedule for defining and implementing an
approach for achieving the goals presented in the CIRT focus group white paper.




                                              8
U.S. Department of Commerce                                                Final Inspection Report OSE-16522
Office Of Inspector General                                                                    September 2004


II.	 Some Commerce Operating Units Lack Adequate Incident Response Procedures and
     Most Lack the Required Reviews and Approvals

The Department’s policy requires all operating units to have formal incident response
procedures, whether or not they have a CIRT, and to submit these procedures to their operating
unit CIO and then to the Department CIO’s office for review and approval. The DOC critical
infrastructure program manager, in consultation with the DOC IT security program manager, is
to develop and approve all policies and procedures for operation of DOC CIRT and the CIRT
federation. Procedures are needed to aid in the detection of incidents and to guide operating unit
incident response personnel—system and network administrators and IT security officers—
during security incidents. According to Carnegie Mellon University’s Software Engineering
Institute, having written incident response procedures is one of the most important tools for
successfully handling incidents. 7

Table 3 summarizes each operating unit’s status for establishing procedures that are detailed and
complete enough to support effective incident response, obtaining the approval of the unit’s CIO,
and obtaining Department approval. Four of the 10 operating units we reviewed, including the
Office of the Secretary which houses DOC CIRT, lacked procedures that would support effective
incident response; 6 of the 10 units did not receive operating unit CIO approval for their
procedures; and only 1 of the 10 units received approval by the Department CIO’s office.

The DOC CIRT’s lack of adequate procedures is particularly troubling since it is the incident
handling organization for the operating units without a formal CIRT. Although DOC CIRT gave
us a document entitled, Computer Incident Response Guidelines, it provides policy but contains
only minimal procedures. Moreover, developed in 1999, the document has not been updated or
validated against the current information security policy of the Department, which has changed
considerably over the past five years. In addition to DOC CIRT, Census, EDA, and MBDA
either lacked documented procedures or had inadequate procedures. Census, which operates a
CIRT, indicated it is developing formalized procedures, but could not provide a date for their
completion. EDA’s directive on incident response purports to provide policies and procedures
for incident handling but contains only high- level steps for establishing a capability to do so.
MBDA provided a draft document entitled, IT Security Emergency Mobilization Plan, dated
March 2003; however, this plan only minimally addresses incident response procedures.
MBDA’s IT security officer stated that with the departure of its CIO in March 2004, many
approved IT documents cannot be located.

The procedures we reviewed for the other operating units varied in detail and completeness.
Some were highly formalized with flowcharts and checklists that team members are to use to
handle an incident, while others had less formal procedures consisting of generic actions to
perform during an incident.

Although Department policy requires review and approval of incident response procedures by
each unit’s CIO, only EDA, NIST, and NTIS’s procedures have received such approval. Two

7
 Carnegie Mellon University, State of the Practice of Computer Security Incident Response Teams (CSIRTs),
CMU/SEI -2003-TR-001, October 2003.


                                                       9
U.S. Department of Commerce                                                         Final Inspection Report OSE-16522
Office Of Inspector General                                                                             September 2004


operating units, BIS and NOAA, indicated that their incident procedures were approved.
However, BIS could not locate the approval memorandum signed by the BIS CIO or provide any
other evidence of CIO approval. NOAA’s procedures were approved by its director of IT
security after NOAA’s CIO delegated approval authority. However, the Department’s security
policy does not provide for delegating this authority.


      Table 3. Incident Response Procedures and Approvals of Operating
      Units Reviewed in this Evaluation

                                                   Procedures         Procedures
                                                  Approved by          Sufficiently        Procedures
                               Procedures          Operating          Detailed and        Approved by
           Operating Unit
                               Documented           Unit CIO            Complete          Department
                                                         a
      BIS                         Yes                 No                   Yes                 No
      Census                       No                  No                  No                  No
                                                          b
      EDA                         Yes                 Yes                  No                  No
      ITA                         Yes                  No                  Yes                 No
                                     c
      MBDA                        No                   No                  No                  No
      NIST                        Yes                 Yes                  Yes                 No
                                                         d
      NOAA                        Yes                 No                   Yes                 No
      NTIS                        Yes                 Yes                  Yes                Yes
      OS (DOC CIRT)               Yes                  No                  No                  No
      USPTO                       Yes                  No                  Yes                 No
       a
         BIS indicated its procedures had been approved but could not locate the BIS CIO’s approval
       memorandum or provide other evidence of CIO approval.
       b
         EDA did not have a CIO; however, it’s procedures were approved by the deputy CIO and assistant
       secretary for economic development.
       c
         MBDA provided draft procedures.
       d
         NOAA’s procedures were approved by NOAA’s Director of IT Security.


There is confusion as to which operating units are required to have their incident response
procedures approved by the Department. The Department CIO’s office provided guidance to the
operating units that is not consistent with its information security policy: although the
Department’s policy requires submission of all operating units’ procedures for review and
approval, the guidance states that CIRTs established prior to the issuance of the policy in January
2003 do not have to submit their incident response procedures to the Department for review. If
this guidance were followed, the only CIRTs required to submit procedures would be those
created after the policy was issued—the CIRTs established by BEA, NTIA, and NTIS. Since the
Department’s CIO is charged with protecting IT resources throughout the entire Department, we
believe that all operating units should be required to submit their procedures to the Department
CIO’s office for review and approval.

The Department’s security policy requires that the critical infrastructure program manager
review and approve operating units incident response procedures, but approval of NTIS’s
procedures was granted by the IT security program manager. Differences between the security
policy and actual practice need to be reconciled.




                                                            10
U.S. Department of Commerce                                       Final Inspection Report OSE-16522
Office Of Inspector General                                                           September 2004


In January 2004, NIST published new guidance on incident handling, Special Publication 800­
61, Computer Security Incident Handling Guide, whose purpose is to assist organizations in
establishing incident response capabilities and efficiently and effectively handling incidents. It
addresses organizing an incident response capability, establishing incident response policies and
procedures, and handling incidents from initial preparation through the post-incident lessons
learned phase. To address the problems with current operating unit procedures and promote
quality and consistency throughout Commerce, the Department CIO’s office should use this
guide as a basis for developing a set of procedures applicable to all operating units and DOC
CIRT. While operating units sho uld be permitted to tailor those procedures to specific
requirements of their organizations, any changes should be reviewed and approved by the CIO of
the unit, as well as the Department’s IT security manager and critical infrastructure program
manager.

Recommendations

The Department CIO should ensure the following:

1.	 A plan and schedule is prepared for developing incident response procedures in accordance
    with NIST Special Publication 800-61 for use by all operating units.

2.	 Any modifications made by an operating unit to the Department’s incident response
    procedures are reviewed and approved by the unit’s CIO and the Department’s IT security
    manager and critical infrastructure program manager.

3.	 The Department’s IT security policy reflects the changes to ho w incident response
    procedures will be developed and reviewed and any associated guidance is consistent with
    the policy.




                                                11
U.S. Department of Commerce                                        Final Inspection Report OSE-16522
Office Of Inspector General                                                            September 2004


III. Operating Units’ Incident Reporting Is Incomplete and Inconsistent

Under FISMA and Department policy, FedCIRC must be notified of computer security incidents,
and Department policy also requires DOC CIRT to be notified of incidents. Accurate reporting
and analysis of incident data is an important way for the Department to gain a better
understanding of its threats and vulnerabilities, as well as to identify actions and resources
needed to better protect its sensitive information. In its guidance, NIST points out that a study of
incident characteristics may indicate systemic security weaknesses and threats, as well as
changes in incident trends. This data can be used in the risk assessment process and may lead to
the selection and implementation of additional controls.

However, reporting of computer security incidents by the operating units and DOC CIRT is
incomplete and inconsistent, as shown in table 2. For operating units that do not have formally
established CIRTs, the Department’s policy requires DOC CIRT to report incidents to FedCIRC;
units with formal CIRTs are to report incidents directly to FedCIRC and send a copy of the
information to DOC CIRT. Of the 10 total incidents shown as detected in units without formal
CIRTs in FY 2003, 8 were reported to DOC CIRT, but only 2 were reported to FedCIRC. Of the
809 total incidents detected in units with formal CIRTs, only 31 were reported to FedCIRC, with
679 reported to DOC CIRT. Thirty of the 31 incidents reported to FedCIRC were reported by
USPTO and 677 of the 679 incidents reported to DOC CIRT were reported by NOAA.

Although NOAA accounts for nearly all of the incidents reported to DOC CIRT, we found the
arrangement agreed to by the Department for NOAA’s reporting problematic. The Department’s
policy requires preliminary reporting to DOC CIRT as soon as possible but no later than 24
hours after an incident is discovered; detailed reporting is required within 5 working days of the
preliminary report. However, rather than sending specific incident reports, NOAA is permitted
to provide DOC CIRT access to its incident database. As a result, DOC CIRT personnel are not
explicitly notified of NOAA’s incidents. Additionally, our interviews revealed that DOC CIRT
personnel are not assessing the information available in NOAA’s incident database. NOAA
should be required to notify DOC CIRT when an incident occurs, and DOC CIRT should assess
the incident information in NOAA’s database.

The more than 70,000 incidents shown as detected by NIST and reported to FedCIRC in
FY 2003 are actually raw data from NIST’s network logs and sensors, which were given to
FedCIRC for analysis under a special agreement. While providing this information to FedCIRC,
NIST was not reporting specific incidents in accordance with Department policy. Therefore, the
information on incidents shown as detected and reported for NIST in the Department’s FY 2003
FISMA report is neither meaningful nor correct. NIST officials told us that they no longer send
their log and sensor data to FedCIRC and are now providing specific incident reports to both
FedCIRC and DOC CIRT. They also told us that in FY 2003, NIST had only one reportable
incident, but stated they consider an incident reportable only when a compromise occurs, an
interpretation not consistent with the Department’s policy, as discussed later in this finding.




                                                 12
U.S. Department of Commerce                                                           Final Inspection Report OSE-16522
Office Of Inspector General                                                                               September 2004




       Table 2. Incidents Reported by Operating Unit in FY 2003 According to
       Department FISMA Reporting and DOC CIRT Records

                                                                   Number of
                                     Number of                Incidents Reported                 Number of
                                Incidents Detected,               to FedCIRC,               Incidents Reported
                                  As Reported in                As Reported in                 to DOC CIRT,
                                 Department’s 2003            Department’s 2003                According to
           Operating Unit          FISMA Report                  FISMA Report                 DOC CIRT Data
                                     Operating Units Without Formal CIRTs
       BIS                                  2                             2                             1
       EDA                                  0                             0                             1
       ESA                                  1                             0                             0
       ITA                                  2                             0                             1
       MBDA                                 0                             0                             0
             a,b
       OS                                   5                             0                             5
       TA                                   0                             0                             0
       Total:                              10                             2                             8
                                       Operating Units with Formal CIRTs
       BEA                                  2                             0                             0
       Census                              31                             0                             0
                                                    c                             c
       NIST                             72,520                        70,952                            0
                                                                                                            d
       NOAA                                677                            0                           677
       NTIA                                 5                             1                             2
       NTIS                                 0                             0                             0
       USPTO                               94                            30                             0
                                                e                             e
       Total:                             809                            31                           679
       a
         OS reporting includes OIG.
       b
         DOC CIRT resides in OS.
       c
         NIST used network log and sensor information to determine this number. However, NIST officials later told us
       that NIST had no reportable incidents according to definition in Department policy.
       d
         NOAA provided DOC CIRT access to its incident database to obtain preliminary and detailed information
       concerning computer incidents.
       e
         NIST not included in total. (See note c.)




                                                             13
U.S. Department of Commerce                                                         Final Inspection Report OSE-16522

Office Of Inspector General                                                                             September 2004



Incident reporting is not a problem experienced only by Commerce. In its FY 2003 FISMA
report to Congress, OMB noted that the federal government’s incident prevention and
management capabilities must be improved, including increased information sharing to rapidly
identify and respond to cyber threats and critical vulnerabilities. OMB stated that it has a
continuing concern regarding the timeliness and accuracy of incident reporting by agencies.
OMB pointed out that less than full reporting makes trend analysis difficult and diminishes the
ability to correlate ongoing attacks. 8
                                                                                        We found that one reason for
             Department’s Definition of Reportable IT Security Incident
                                                                                        inadequate reporting is that some
    The Department’s policy defines a reportable incident as any act that violates an   operating units are unfamiliar with
    explicit or implied security policy within the Department or its operating units.
    It further states that an incident is any adverse event that threatens the security the Department’s reporting
    of information resources. The policy states that incidents may include but are      requirements, and the Department
    not limited to the events described below.
                                                                                        has not enforced them. As shown in
  Event                             Description                                         the box, the Department’s policy
  Compromise of integrity           A virus infects a system or network.                defines reportable incidents, and
  Denial of service attack          An attacker has disabled a system or a network
                                                                                        does not limit them to events
                                    worm has used all available network bandwidth.      involving significant compromise.
  Loss of accountability/           An intruder or insider uses an account or a system
                                                                                        The Department’s definition is the
  misuse                            for unauthorized or illegal purposes.               same as that of FedCIRC.
  Damage to any part of the         A virus or disgruntled employee destroys data.
                                                                                        Nonetheless, several of the CIRT
  system                                                                                representatives we interviewed stated
  Compromise of                     An unauthorized outsider gains access to your IT
                                                                                        they were required to report only
  confidentiality/intrusion         resources.                                          incidents resulting in significant
                                                                                        compromise. In addition, officials
  Source: IT Security Program Policy and Minimum Implementation Standards,
  U.S. Department of Commerce, January 24, 2003.                                        from two CIRTs told us they were
                                                                                        not aware of the requirement to
provide DOC CIRT with an informational copy of incidents that were reported to FedCIRC.
Contributing to the reluctance of operating units to report incidents to DOC CIRT is the lack of a
secure means of communications. The Department CIO needs to ensure that all operating units
understand the reporting requirements, that a secure means of communications is made available,
and a process is put in place for enforcing the requirement for all operating units to identify,
track, and report incidents. Table 2 shows that few incidents were detected in most operating
units. As discussed in finding V, we believe that weaknesses in unit incident detection
approaches is one reason for this.




8
 Office of Management and Budget, FY2003 Report to Congress on Federal Government Information Security
Management, March 1, 2004.


                                                             14
U.S. Department of Commerce                                     Final Inspection Report OSE-16522
Office Of Inspector General                                                         September 2004


Recommendations

The Department CIO should ensure the following:

1.	 A formal process is developed to promptly notify DOC CIRT and FedCIRC when an incident
    occurs, and all operating units and DOC CIRT understand and comply with the Department’s
    policy and process for reporting security incidents.

2.	 A plan and schedule are developed for implementing an infrastructure for secure
    communication among the operating units and DOC CIRT.




                                              15
U.S. Department of Commerce                                        Final Inspection Report OSE-16522
Office Of Inspector General                                                            September 2004


IV. 	 System Administrators and IT Security Officers Must Improve Their Intrusion
      Detection Approaches and Obtain Additional Specialized Tools and Training

Although incident detection can help prevent incidents or mitigate their effects, the necessary
steps to detect incidents frequently are not taken, including systematically reviewing logging
information, preferably using automated tools. In addition, in order for the Department to build
and maintain effective incident detection and response capabilities, greater attention must be
given to ensuring that staff members responsible for these functions throughout Commerce
receive appropriate specialized training.

A. Intrusion Detection Approach Is Inadequate

Although an effective incident response capability is essential, preventing incidents or detecting
them before significant damage is done is clearly preferable. Prevention and detection can be
facilitated by installing intrusion detection systems and reviewing log information on a regular
basis. Our review identified weaknesses in the frequency and approach used to review log
information from network devices. We found instances where log information was not
reviewed, infrequently reviewed, or reviewed only on a monthly basis. We also found instances
of log reviews where large quantities of information were examined using visual inspection as
opposed to automated log reviews. Because of the large volume of information to be reviewed,
this type of inspection approach can be extremely tedious, error prone, and ineffective in
detecting malicious activity. We believe that poor incident detection is one reason for few
incidents being identified by most operating units, as was shown in table 2.

The Department’s IT security program policy requires that log information from perimeter
intrusion detection systems be reviewed on a daily basis, and medium and high criticality servers
on internal protected networks be reviewed on a weekly basis. It also requires that host-based
intrusion detection systems be reviewed, although it does not specify how often. Frequent
review of log information is essential in detecting malicious behavior. NIST guidance notes that
organizations may receive thousands or millions of possible signs of incidents each day, recorded
mainly by logging and computer security software and that automation is needed to perform an
initial analysis of the data and select events of interest for human review. The guidance points
out that event correlation software and centralized logging can be of great value in automating
the analysis process, but that the effectiveness of the process depends on the quality of the data
that goes into it. Thus, every operating unit needs to establish logging standards and procedures
to ensure that adequate information is collected by logs and security software and that the data is
reviewed according to the Department’s policy. The Department CIO’s office, in cooperation
with the operating units, should evaluate the use of automated tools and data reduction
techniques to increase log review efficiency and effectiveness in detecting malicious behavior,
and consider the purchase of Department-wide licenses for such tools.

B. Additional Specialized Training Is Needed

Under the Department’s policy, operating units must identify positions that require specialized
training, as well as the specific requirements of that training. As we reported in our FY 2003
FISMA independent evaluation, progress in this area has been limited. We noted that training


                                                16
U.S. Department of Commerce                                        Final Inspection Report OSE-16522
Office Of Inspector General                                                            September 2004


for personnel with significant information security responsibilities, such as system administrators
and IT security officers, appeared to be inconsistent and incomplete at the units we reviewed. In
this review of incident response, we found a similar problem of incomplete and inconsistent
training at the various operating units. Overall, we found that units had not identified training
requirements for system administrators, network administrators, IT security officers, and IT
security staff who are responsible for responding to incidents and reviewing audit log
information from network devices. Although some specialized security training in these areas is
provided, it is not systematic and does not ensure that staff members have the requisite
knowledge and skills. Some operating unit officials attributed inadequate training to limited
resources. The Department CIO, in conjunction with the operating units, needs to determine the
requirements for specialized training in incident prevention, detection, and response and ensure
that staff members responsible for these functions receive sufficient training, including periodic
refresher training to keep abreast of ongoing changes to threats, vulnerabilities, and security
measures.

Recommendations

The Department CIO should ensure the following:

1.	 Each operating unit follows the Department’s policy for reviewing network device log
    information. This could be done, for example, by developing and requiring the
    implementation of a formal process for reviewing network device log information that
        a.	 Identifies the information to be analyzed and review procedures to be performed,
        b.	 Requires documentation of review findings, and
        c.	 Ensures that all operating unit IT security officers oversee the log review and evaluate
            the logs for actions performed by system administrators.

2.	 Available tools for automating audit log reviews are assessed and operating units implement
    those that are most appropriate. Consider purchase of a Department-wide license for
    appropriate tools.

3.	 Training requirements are defined and appropriate training is implemented for all IT staff
    with incident prevention, detection, and response duties, including periodic refresher training.




                                                17
Attachment


                 Commerce Chief Information Officer Comments on
                        Draft Inspection Report No. OSE-16522
Management Attention Is Needed to Assure Adequate Computer Incident Response Capability

Finding I. 	   The Department’s Distributed Incident Response Structure Is Appropriate,
               but the Planned Coordination Mechanism Has Not Been Implemented
Recommendation: The Department CIO should develop a plan and schedule for defining and
implementing an approach for achieving the goals presented in the CIRT focus group white
paper.
Corrective Actions Planned/In Place:
The focus group that created the white paper will be re-convened as an Incident Handling
Management Task Force no later than the end of September 2004, and will be charged with
advising on revised policy, Department-wide procedures, and overall implementation, with an
aggressive schedule, with full implementation scheduled for no later than June 2005.


Finding II. 	 Some Commerce Operating Units Lack Adequate Incident Response
              Procedures and Most Lack the Required Reviews and Approvals
Recommendations: The Department CIO should ensure the following:
1. 	 A plan and schedule is prepared for developing incident response procedures in accordance
     with NIST Special Publication 800-61 for use by all operating units.
2. 	 Any modifications made by an operating unit to the Department’s incident response
     procedures are reviewed and approved by the unit’s CIO and the Department’s IT security
     manager and critical infrastructure program manager.
3. 	 The Department’s IT security policy reflects the changes to how incident response
     procedures will be developed and reviewed and any associated guidance is consistent with
     the policy.
Corrective Actions Planned/In Place:
1. 	 The Department’s FY 2004 IT Security Compliance Review Program includes review of
     operating unit policies and procedures for consistency with NIST SP 800-61. This effort is
     underway and on track for completion by September 30, 2004. Based in part on the results
     of this review and with the involvement of the task force, appropriate updates will be made to
     the Commerce IT Security Program Policy and Minimum Implementation by November
     2004, and a Department “model CIRT procedures” document will be issued as guidance for
     Commerce operating units no later than January 2005.
2. 	 Once the Department “model CIRT procedures” are established, the operating units will have
     the opportunity to develop or revise their CIRT operating procedures so they are consistent
     with these model procedures. The revised IT Security policy will require that any operating
     unit procedures that are not consistent with the model Department procedures be reviewed
     and approved by the operating unit CIO and the Department’s IT security Program manager
     and, as appropriate, by the Department’s Critical Infrastructure Program Manager.
3. 	 The revised policy and model CIRT procedures and any associated guidance will be
     developed so as to be mutually consistent.
                                                2
Attachment



Finding III.	 Operating Units’ Incident Reporting Is Incomplete and Inconsistent
Recommendations: The Department CIO should ensure the following:
1. 	 A formal process is developed to promptly notify DOC CIRT and FedCIRC when an incident
     occurs, and all operating units and DOC CIRT understand and comply with the Department’s
     policy and process for reporting security incidents.
2. 	 A plan and schedule are developed for implementing an infrastructure for secure
     communication among the operating units and DOC CIRT.
Corrective Actions Planned/In Place:
1. 	 The revised policy and procedures will provide for prompt notification of incidents of the
     Department CIRT oversight staff and of FedCIRC. A training session for all IT security
     officers and CIRT personnel covering the CIRT-related IT Security policy and the
     Department model procedures will be held in FY 2005, and implementation will be
     monitored through the Department’s annual Compliance Review Program.
2. 	 The task force will address secure communication requirements, and a secure
     communications solution will be in place no later than April 2005.


Finding IV. 	 System Administrators and IT Security Officers Must Improve Their
              Intrusion Detection Approaches and Obtain Additional Specialized Tools
              and Training
Recommendations: The Department CIO should ensure the following:
1. 	 Each operating unit follows the Department’s policy for reviewing network device log
     information. This could be done, for example, by developing and requiring the
     implementation of a formal process for reviewing network device log information that
       a. 	 Identifies the information to be analyzed and review procedures to be performed,
       b. 	 Requires documentation of review findings, and
       c. 	 Ensures that all operating unit IT security officers oversee the log review and evaluate
            the logs for actions performed by system administrators.
2. 	 Available tools for automating audit log reviews are assessed and operating units implement
     those that are most appropriate. Consider purchase of a Department-wide license for
     appropriate tools.
3. 	 Training requirements are defined and appropriate training is implemented for all IT staff
     with incident prevention, detection, and response duties, including periodic refresher training.
Corrective Actions Planned/In Place:
1. 	 Network device log information handling will be addressed in the revised policy and model
     procedures, and appropriate tools will be selected and acquired to support this policy and
     these procedures by March 2005. Compliance monitoring will include this effort.
2. 	 Available tools for automating audit log reviews will be assessed and operating units will
     implement those that are most appropriate supported by the task force during the

                                                 3
Attachment


   development of the model procedures, with implementation no later than June 2005.
   Department-wide acquisition of these tools will be considered.
3. 	 Requirements for training for CIRT staff will be determined, both for the short term and for
     periodic refresher training, with a training plan and schedule in place by March 2005.




                                                4

